May 15, 2012


TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services

FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                 Centers for Medicare & Medicaid Audits

SUBJECT:       Medicare Compliance Reviews for Calendar Years 2009 and 2010:
               Piedmont Hospital (A-04-11-00081), Regional Medical Center at Memphis
               (A-04-11-00082), and South Miami Hospital (A-04-11-07023)

Attached for your information are advance copies of our final reports on our most recent hospital
compliance reviews. We will issue these reports to Piedmont Hospital, Regional Medical Center
at Memphis, and South Miami Hospital within 5 business days.

These reports are part of the Office of Inspector General’s hospital compliance initiative
designed to review multiple issues concurrently at individual hospitals. These reviews of
Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact
Lori S. Pilcher, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750, or
through email at Lori.Pilcher@oig.hhs.gov.

Attachment

cc:
Daniel Converse
Office of Strategic Operations and Regulatory Affairs
Centers for Medicare & Medicaid Services
                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
May 17, 2012

Report Number: A-04-11-07023

Ms. Beth Gillis
Assistant Vice President of Compliance
Baptist Health South Florida
6855 Red Road
Coral Gables, FL 33143

Dear Ms. Gillis:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of South Miami Hospital for
Calendar Years 2009 and 2010. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Denise R. Novak, Audit Manager, at (305) 536-5309, extension 10, or through email at
Denise.Novak@oig.hhs.gov. Please refer to report number A-04-11-07023 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Beth Gillis

Direct Reply to HHS Action Official:

Ms Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
    SOUTH MIAMI HOSPITAL
     FOR CALENDAR YEARS
        2009 AND 2010




                        Daniel R. Levinson
                         Inspector General

                            May 2012
                          A-04-11-07023
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay. For beneficiary stays
incurring extraordinarily high costs, section 1886(d)(5)(A) of the Act provides for additional
payments (called outlier payments) to Medicare-participating hospitals.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

South Miami Hospital (the Hospital) is a 381-bed acute care hospital located in South Miami,
Florida. Medicare paid the Hospital approximately $116 million for 9,695 inpatient and 43,524
outpatient claims for services provided to beneficiaries during calendar years (CY) 2009 and
2010 based on CMS’s National Claims History data.

Our audit covered $4,285,321 in Medicare payments to the Hospital for 69 inpatient and 76
outpatient claims that we identified as potentially at risk for billing errors. These 145 claims had
dates of service in CYs 2009 and 2010 (2 of these claims involved an anticancer drug and had
dates of service in CY 2011).

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 85 of the 145 claims we reviewed.
However, the Hospital did not fully comply with Medicare billing requirements for selected
inpatient and outpatient claims. Specifically, of 145 sampled claims, 60 claims had errors,
resulting in overpayments totaling $468,323 for CYs 2009 and 2010. Overpayments occurred
primarily because the Hospital did not have adequate controls to prevent incorrect billing of
Medicare claims. Additionally, we set aside $21,292 of the Hospital’s liability insurance claim
as it awaits adjudication by a Medicare Secondary Payer Recovery Contractor (MSPRC).

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $468,323 in overpayments,

   •   strengthen controls to ensure full compliance with Medicare billing requirements, and

   •   follow the MSPRC’s final determination regarding the $21,292 set aside.

SOUTH MIAMI HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations. The Hospital also stated that it had taken immediate corrective actions to
identify additional claims that it billed incorrectly using Healthcare Common Procedure Coding
System code J9171. We acknowledge the Hospital’s efforts to conduct its own review of
additional claims outside of our original sample. However, because the Hospital identified the
billing problem as a result of our audit, we expanded our original sample to include additional
claims. The Hospital also asked for clarification on the exact amount of the overpayment and
asked for contact information to resolve the amount we set aside. The Medicare contractor will
advise the Hospital whether any adjustments to the overpayment amount are appropriate. We
provided the Hospital with the contact information requested. The Hospital’s comments are
included in their entirety as the Appendix.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         South Miami Hospital ....................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes ...5
          Inpatient Short Stays ......................................................................................................6
          Inpatient Claims With Payments Greater Than $150,000 .............................................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Outpatient Claims With Payments Greater Than $25,000.............................................7
          Outpatient Claims for Anticancer Drug Billed With HCPCS Code J9171 ...................7
          Outpatient Manufacturer Credits for Replaced Medical Devices ..................................7
          Outpatient Claims Billed With Modifier -59 .................................................................8

      RECOMMENDATIONS .......................................................................................................8

      SOUTH MIAMI HOSPITAL COMMENTS AND OFFICE OF INSPECTOR
       GENERAL RESPONSE .....................................................................................................9

APPENDIX

      SOUTH MIAMI HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors 1 to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays incurring extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS was effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes 3 and descriptors to


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
identify and group the services within each APC group. All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient short stays,

    •   inpatient claims with payments greater than $150,000,

    •   inpatient hospital-acquired conditions and present on admission indicator reporting,

    •   inpatient claims for blood clotting factor drugs,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims with payments greater than $25,000,

    •   outpatient claims for the anticancer drug billed with HCPCS code J9171, and

    •   outpatient claims billed with modifier -59.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of
payment.



                                                   2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

South Miami Hospital

South Miami Hospital (the Hospital) is a 381-bed acute care hospital located in South Miami,
Florida. Medicare paid the Hospital approximately $116 million for 9,695 inpatient and 43,524
outpatient claims for services provided to beneficiaries during calendar years (CY) 2009 and
2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $4,285,321 in Medicare payments to the Hospital for 145 claims that we
judgmentally selected as potentially at risk for billing errors. These 145 claims had dates of
service in CYs 2009 and 2010 and consisted of 69 inpatient and 76 outpatient claims (2 of these
claims involved an anticancer drug and had dates of service in CY 2011).

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during July 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;



                                                 3
   •   extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
       Claims History file for CYs 2009 and 2010;

   •   obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for CYs 2009 and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected an initial judgmental sample of 125 claims, which we expanded during the audit
       to 145 claims (69 inpatient and 76 outpatient), for detailed review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation the Hospital provided to
       support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 85 of the 145 claims we reviewed.
However, the Hospital did not fully comply with Medicare billing requirements for selected
inpatient and outpatient claims. Specifically, of 145 sampled claims, 60 claims had errors,
resulting in overpayments totaling $468,323 for CYs 2009 and 2010. Overpayments occurred
primarily because the Hospital did not have adequate controls to prevent incorrect billing of



                                                4
Medicare claims. Additionally, we set aside $21,292 of the Hospital’s liability insurance claim
as it awaits adjudication by a Medicare Secondary Payer Recovery Contractor (MSPRC).

Of the 69 sampled inpatient claims, 11 had billing errors resulting in overpayments totaling
$57,261:

   •   For inpatient claims billed with high severity level DRG codes, the Hospital billed
       Medicare with incorrect DRG codes (six errors totaling $41,817 in overpayments).

   •   For inpatient short stays, the Hospital incorrectly billed Medicare Part A for beneficiary
       stays that it should have billed as outpatient (three errors totaling $14,449 in
       overpayments).

   •   For inpatient claims with payments greater than $150,000, the Hospital submitted claims
       to Medicare with incorrect charges that resulted in incorrect outlier payments (two errors
       totaling $995 in overpayments).

Of the 76 sampled outpatient claims, 49 had billing errors resulting in overpayments totaling
$411,062:

   •   For outpatient claims with payments greater than $25,000, the Hospital submitted claims
       to Medicare with incorrect HCPCS codes (14 errors totaling $1,488 in overpayments).

   •   For outpatient claims for the anticancer drug billed with HCPCS code J9171, the Hospital
       submitted claims to Medicare with incorrect units of service (24 errors totaling $368,437
       in overpayments).

   •   For outpatient manufacturer credits for replaced medical devices, the Hospital did not
       obtain a credit for a replaced device that was available under the terms of the
       manufacturer’s warranty (one error totaling $24,125 in overpayments).

   •   For outpatient claims billed with modifier -59, the Hospital incorrectly billed for HCPCS
       codes that did not require modifier -59 (7 errors totaling $14,874 in overpayments) or
       contained incorrect HCPCS codes (3 errors totaling $2,138 in overpayments).

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 11 of 69 sampled inpatient claims. These errors
resulted in overpayments totaling $57,261.

Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for diagnosis or treatment of illness or injury or
to improve the functioning of a malformed body member.” In addition, the Manual, chapter 1,



                                                 5
section 80.3.2.2, states, “In order to be processed correctly and promptly, a bill must be
completed accurately.”

The Medicare Secondary Payer Manual, Pub. No. 100-05, chapter 2, section 40, states,
“Medicare does not make payment for covered items or services to the extent that payment has been
made, or can reasonably be expected to be made under a liability insurance policy or plan (including
a self-insured plan).” In addition, section 40.1 states, “Medicare has a statutory direct right of
recovery from the liability insurance as well as any entity that has received payment directly or
indirectly from the proceeds of a liability insurance payment.”

For 6 of the 32 sampled claims billed with high severity level DRGs, the Hospital billed
Medicare with incorrectly coded DRGs. The Hospital stated that the incorrect coding occurred
because of human error. As a result, the Hospital received overpayments totaling $41,817.

Additionally, we set aside $21,292 for potential adjudication by an MSPRC. This set aside
corresponds to a claim in which the Hospital may have primary payer responsibility because the
admission resulted from an injury sustained while the patient was in the Hospital emergency
department.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 3 of the 11 sampled claims, the Hospital incorrectly billed Medicare for inpatient stays that it
should have billed as outpatient. The Hospital attributed the incorrect admissions to human
error. As a result, the Hospital received overpayments totaling $14,449. 4

Inpatient Claims With Payments Greater Than $150,000

The Manual, chapter 3, section 10, states that a hospital may bill only for services provided. In
addition, the Manual, chapter 1, section 80.3.2.2, states, “In order to be processed correctly and
promptly, a bill must be completed accurately.”

For the two sampled claims, the Hospital submitted claims to Medicare with incorrect charges
that resulted in incorrect outlier payments. For one claim, the Hospital did not bill for units of
service or supplies that were supported by the medical records, which resulted in an
underpayment. For the other claim, the Hospital billed for units of service and supplies that were
not supported by the medical records, which resulted in an overpayment. The Hospital attributed
these incorrect charges to human error. As a result, the Hospital received net overpayments
totaling $995.

4
 The Hospital may bill Medicare Part B for a limited range of services related to some of the incorrectly billed
Medicare Part A short stay claims. For two of three claims, we were unable to determine the effect that billing
Medicare Part B would have on the overpayment amount because these services had not been adjudicated by the
MAC prior to issuance of our report.


                                                         6
BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 49 of 76 sampled outpatient claims. These errors
resulted in overpayments totaling $411,062.

Outpatient Claims With Payments Greater Than $25,000

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Additionally, the Manual,
chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that Medicare
contractors may process them correctly and promptly.

For 14 of the 18 sampled claims, the Hospital submitted claims to Medicare using incorrect
HCPCS codes. The Hospital stated that these incorrect billings occurred because of human error.
As a result, the Hospital received overpayments totaling $1,488.

Outpatient Claims for Anticancer Drug Billed With HCPCS Code J9171

The Manual, chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that
Medicare contractors may process them correctly and promptly. In addition, chapter 4, section
20.4, states, “The definition of service units … is the number of times the service or procedure
being reported was performed.”

For 24 of the 28 sampled claims, the Hospital submitted claims to Medicare with incorrect
service units for HCPCS code J9171 (Docetaxel injection, a drug used in the treatment of
cancer). The Hospital stated that these errors occurred because the conversion factor used to
calculate the service units associated with this drug was incorrect on the charge master. 5 As a
result, the Hospital received overpayments totaling $368,437.

Outpatient Manufacturer Credits for Replaced Medical Devices

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Prudent Buyer Principle

Under 42 CFR § 413.9, “All payments to providers of services must be based on the reasonable
cost of services ….” CMS’s Provider Reimbursement Manual, part 1, section 2102.1, states:



5
 A hospital charge master contains the prices of all services, goods, and procedures for which a separate charge
exists. It is used to generate a patient’s bill.


                                                         7
       Implicit in the intention that actual costs be paid to the extent they are reasonable
       is the expectation that the provider seeks to minimize its costs and that its actual
       costs do not exceed what a prudent and cost conscious buyer pays for a given item
       or service. If costs are determined to exceed the level that such buyers incur, in
       the absence of clear evidence that the higher costs were unavoidable, the excess
       costs are not reimbursable under the program.

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits or payments available under the terms of the warranty
       covering the replaced equipment. The credits or payments that could have been
       obtained must be reflected as a reduction of the cost of the equipment.

For one of the seven sampled claims, the Hospital did not obtain a credit for a replaced device
that was available under the terms of manufacturer’s warranty. The Hospital stated the incorrect
billing occurred because of human error. As a result, the Hospital received an overpayment of
$24,125.

Outpatient Claims Billed With Modifier -59

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 23, section 20.9.1.1, states:
“The ‘-59’ modifier is used to indicate a distinct procedural service .... This may represent a
different session or patient encounter, different procedure or surgery, different site, or organ
system, separate incision/excision, or separate injury (or area of injury in extensive injuries).”

For 10 of the 23 sampled claims, the Hospital incorrectly billed Medicare for HCPCS codes that
did not require modifier -59 (7 claims) or contained incorrect HCPCS codes (3 claims). The
Hospital stated that these incorrect billings occurred because of human error. As a result, the
Hospital received overpayments totaling $17,012.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare program $468,323 in overpayments,

   •   strengthen controls to ensure full compliance with Medicare billing requirements, and

   •   follow the MSPRC’s final determination regarding the $21,292 set aside.




                                                 8
SOUTH MIAMI HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations. The Hospital also stated that it had taken immediate corrective actions to
identify additional claims that it billed incorrectly using HCPCS code J9171. We acknowledge
the Hospital’s efforts to conduct its own review of additional claims outside of our original
sample. However, because the Hospital identified the billing problem as a result of our audit, we
expanded our original sample to include additional claims. The Hospital also asked for
clarification on the exact amount of the overpayment and asked for contact information to
resolve the amount we set aside. The Medicare contractor will advise the Hospital whether any
adjustments to the overpayment amount are appropriate. We provided the Hospital with the
contact information requested. The Hospital’s comments are included in their entirety as the
Appendix.




                                                9
APPENDIX
                   APPENDIX: SOUTH MIAMI HOSPITAL COMMENTS
                                                                                                     Page 1 of 3


m
_
    South Miami
    Hospital
                                                                                              6855 Red Road
                                                                                             Miami, FL 33143
                                                                                           Tel: 786-662-7352
                                                                                           Fax: 786-662-7002
    BAPTIST HEALTH SOUTH FLORIDA                                                         www.baptisthealth .net




    March 5, 2012



    Lori S. Pilcher
    Regional Inspector General for Audit Services
    Department of Health and Human Services
    Office of Audit Services, Region IV
    61 Forsyth Street, SW, Suite 3T41
    Atlanta, GA 30303


    Report Number: A-04-11-07023


    Dear Ms. Pilcher:

    Thank you for the opportunity to review and provide comments regarding the report entitled "Medicare
    Compliance Review of South Miami Hospital for Calendar Years 2009 and 2010." As your report
    indicates, the review was conducted for nine specific types of payments that have been identified as
    at risk for error. These payments were identified by the Office of Inspector General (OIG) using
    computer matching, data mining, and analysis techniques. After careful review of the draft report,
    South Miami Hospital would like to submit the following comments.

    Executive Summary

    The Executive Summary discusses the scope of the audit as payments to the hospital that are at risk
    for noncompliance with Medicare billing requirements. The original sample was distributed across
    nine risk areas where, according to the OIG, errors are likely. For three of these risk areas, no errors
    were identified. In fact, the vast majority, 79%, of the overpaid dollars can be attributed to one error
    that affected multiple claims in the sample; a sample that was expanded once the error was identified.

    The Executive Summary states rather broadly that the "overpayments occurred primarily because the
    Hospital did not have adequate controls to prevent incorrect billing of Medicare claims." This
    statement could, in fact, be read as an assessment of all internal controls that exist related to
    Medicare billing and it is with this potential misperception that we respectfully take issue. It is not until
    further along, within the body of the complete report, that it is noted that the OIG " ... limited our review
    of the Hospital's internal controls to those applicable to the inpatient and outpatient areas of review
    because our objective did not require an understanding of all internal controls over the submission
    and processing of claims .. ." and that "This report focuses on selected risk areas and does not
    represent an overall assessment of all claims submitted .... " (See Scope.)

    South Miami Hospital acknowledges the errors that were identified through this claim review and has
    taken the appropriate actions to remedy any weaknesses identified. The hospital respectfully
    submits, however, that the assessment of internal controls, as stated in the Executive Summary,
    should take into account the nature of the review, i.e. areas prone to error, and the fact that th is
    review is not an "overall assessment" of all claims billed to the Medicare program.
                                                                                           Page 2 of3

March 5, 2012
Ms. Lori S. Pilcher
Page 2


Claims Sampled

The original sample requested by the OIG consisted of 125 inpatient and outpatient claims. At the
direction of the OIG, South Miami Hospital conducted its own review of the sampled claims to
determ ine whether the services were billed correctly. It was determined through this review that an
error had been made when billing for the drug represented by HCPCS code J9171. South Miami
Hospital took immediate corrective action, which included the identification of any claims outside of
the OIG's sample that may have been overpaid . The hospital self-identified 12 additional claims. The
hospital began the refund process for these accounts and voluntarily identified these errors to the
OIG during the on-site review. The OIG then selected an additional sample of eight claims, for which
no overpayments were identified.

Throughout the report, the sample is reported as 145, with no mention that a portion of this sample
was voluntarily identified by the hospital and that this portion had been pre-determined as containing
errors, thereby increasing the total number of claim exceptions. Likewise, prior to the OIG's review,
the hospital had self-initiated refunds for these self-identified claims; an estimated $180,000 of the
total estimated overpayment.

Overpayment Amount

The draft report states that the hospital received $468,323 in overpayments. According to the most
recent schedule provided to the hospital by the OIG, the total amount of identified overpayments was
$466,332. We also note that since the time of the review, adjustments required under the Affordable
Care Act have been applied by the Medicare Administrative Contractor to some of the accounts,
affecting the amount paid by the Medicare program. Finally, as discussed above, at the time of the
review re-payment requests were already underway for approximately $180,000 of the total estimated
by the OIG , leaving an estimated overpayment $286,000. For these reasons , we respectfully request
that the overpayment amount be referred to as an estimated overpayment. We also request an
updated schedule of payment discrepancies.

Recommendations

In regard to the recommendations included in the draft report, South Miami Hospital offers the
following comments.

    •   Refund to the Medicare program $468,323 in overpayments

        South Miami Hospital will take the appropriate actions to refund any overpayments received ,
        taking into consideration that the total amount refunded may vary from the amount above,
        due to factors that may impact the actual amount due to the Medicare program.

    •   Strengthen controls to ensure full compliance with Medicare billing requirements

        South Miami Hospital is committed to accurate submission of claims to the Medicare
        program. To this end, auditing, monitoring, and educational activities are conducted on a
        regular basis. These efforts focus on those areas that are identified as at risk by the OIG and
        other regulatory agencies. South Miami Hospital will continue to emphasize accurate claim
        submission as a part of the organization's corporate compliance program.

        Analysis of the claims identified as errors demonstrates that 79% of the overpayments were
        related to a single error which occurred when establishing the conversion factor for the
        HCPCS drug J9171. This factor was needed in order to convert the units of the drug that
        were administered to the billing units reportable for the HCPCS code. To remedy this
        situation, the following steps were taken:
                                                                                              Page 3 of3

March 5, 2012
Ms. Lori S. Pilcher
Page 3



             a   The conversion factor in the charge master was immediately corrected.
             a   Any claims outside of the OIG sample that may have been incorrectly paid were
                 immediately identified and reviewed.
             a   Steps were immediately taken to begin the process required to return any
                 overpayments identified for the self-identified claims to the Medicare program.
             a   All existing drug conversion factors loaded in the charge master were reviewed,
                 including the conversion factors loaded for every drug reported with any HCPCS
                 code.
             a   The process for review and approval of drug conversion factors was reviewed and
                 improved to include a two step process for validation of conversion factor calculation
                 and entry.
             a   Monitoring reports that identify any claims submitted with drug billing units exceeding
                 a defined threshold were implemented and a process was defined for review of any
                 items that meet the selection criteria.

    • 	 Follow the Medicare Secondary Payer Recovery Contractor (MSPRC) final determination
        regarding the $21,292 set aside

        South Miami Hospital will work with the MSPRC to achieve resolution regarding the $21,292
        set aside. To this end , please provide the contact information for the appropriate party at the
        MSPRC.


South Miami Hospital is committed to accurate submission of claim information to the Medicare
program. Auditing, monitoring, and education regarding the complexities of billing for services
rendered will continue as part of the organization's ongoing emphasis on implementing, testing, and
monitoring the effectiveness of internal controls. When errors are discovered, the appropriate actions
will continue to be taken to remedy the cause of the error and to return any inappropriate payments
that may have been received. It is through these activities that South Miami Hospital will continue its
commitment to processes which support the accurate submission of claim data.

If you need any further information or if I can provide any further assistance, do not hesitate to contact
me.




Sincerely,

/Karen Brady/


Karen Brady
Corporate Vice President and Chief Compliance Officer
